U.S. Department of                                     The Inspector General          Office of Inspector General
Transportation                                                                        Washington, DC 20590
Office of the Secretary
of Transportation


 February 15, 2007


 The Honorable Jesse Jackson, Jr.
 U.S. House of Representatives
 Washington, DC 20515

 Dear Representative Jackson:

 This is in response to your request that we obtain information on Chicago Midway
 Airport’s operations, capacity, and runway safety areas. Your request was prompted
 by the December 8, 2005, Southwest Airlines accident in which a plane skidded off
 the end of a runway, killing 1 person and injuring 12. As discussed in meetings with
 your staff, we limited our review to areas that would not be directly addressed by the
 National Transportation Safety Board’s (NTSB) investigation of the accident. This
 letter also includes answers to the specific questions in your request except those
 related to the causes of the accident, which we are deferring to NTSB (see Enclosure).

 Overall, we found that (1) Midway Airport has sufficient capacity to safely handle its
 current level of aircraft operations and (2) the runways at Midway Airport did not
 have adequate runway safety areas; however, in September 2000, the Federal
 Aviation Administration (FAA) determined it was not practicable for Midway to
 achieve FAA’s runway safety area standards. Since that time, changes to FAA
 guidance and recent technological advancements have made it possible for Midway
 officials to install engineered material arresting systems (EMAS)1 at the ends of its
 commercial runways to address this issue.

 The EMAS is an FAA-approved alternative to having unobstructed runway safety
 areas at the end of runways used for commercial aircraft. Midway airport officials are
 in the process of installing EMAS on both of its commercial runways. These steps
 should provide Midway with an extra measure of safety for preventing future runway
 overruns. Further details on these issues are provided in the following paragraphs.



 1
     An EMAS uses lightweight, crushable, block-like concrete material to slow down and stop a speeding jet.


 Control No. 2006-013
                                                                                                                                                                       2

Midway Airport Is Not Operating Over Capacity
According to the FAA’s aviation system performance data, Midway Airport can
handle approximately 1,600 operations per day, significantly more than the
approximately 900 operations per day that it currently handles during its weekday
peaks. An essential element for analyzing the operations capacity of an airport is
FAA air traffic control’s ability to accommodate the aircraft arrival and departure
rates. The operations volume that air traffic control now handles is actually down
from 2004, when the Midway tower controlled approximately 1,100 operations per
day due to the presence of ATA and Chicago Express Airlines at the airport.

The number of operations at Midway Airport has fluctuated significantly over time, as
shown in the Figure below. While operations have trended upward since the early
1990s, data from 2004 to 2005 show a 16.2-percent decline in operations. In fact,
there were fewer operations at Midway in 2005 than in any of the previous 3 years.

                                                                                 Figure
                                                                        Midway Airport Operations
                  400000                                                      1978 to 2005
                  350000


                  300000
     Operations




                  250000

                           Total
                  200000

                                General
                  150000
                                Aviation
                  100000


                  50000
                           Air
                           Carrier                                       Air Taxi
                       0
                           78   79   80   81   82   83   84   85   86   87   88   89   90   91   92   93   94   95   96   97   98   99   00   01   02   03   04   05
                                                                                             Year


       Source: Midway Airport

Based on our analysis of current and historical operations data, air traffic control data,
and estimates regarding capacity, we have concluded that Midway Airport has
sufficient capacity to handle its current level of aircraft operations. Therefore, FAA
air traffic controllers and airport operations managers can safely accommodate planes
landing at Midway.

While airport operations do not appear to be a problem area, the December 2005
accident did highlight the fact that Midway Airport, like many other U.S. airports,
does not have adequate runway safety areas.




Control No. 2006-013
                                                                                                  3

FAA Determined That It Was Not Practicable for Chicago’s Midway
Airport To Comply With Runway Safety Area Standards
The runways used by commercial passenger aircraft at Midway Airport are 2 of the
approximately 300 commercial runways nationwide that do not have runway safety
areas that substantively meet FAA airport design standards. These standards,
implemented by FAA in 1988, require that runways used by commercial aircraft have
unobstructed safety areas to reduce personal injuries and damage in the event of
aircraft overruns, undershoots (touching down too soon), and veer-offs. A standard
runway safety area is 1,000 feet long and 500 feet wide. FAA regulations do not
require runways that were constructed before December 1987, like the ones at
Midway Airport, to comply with the runway safety area standards if it is not
practicable to bring them into compliance.

As provided for in FAA guidance,2 in September 2000, FAA’s Chicago Airports
District Office officials determined that it was not practicable to bring Midway’s
runway safety areas completely up to standards. Realigning roadways to extend the
runway safety areas would result in significant impacts to the surrounding
neighborhoods and significant costs. At that time, FAA requested that Midway
Airport perform a detailed study to analyze the practicality of runway safety area
alternatives and their effect on airport operations.

The resulting airport consultant’s report, issued in May 2004,3 estimated that full
compliance with runway safety area requirements would involve moving 80 to
130 commercial buildings and 350 to 700 residential buildings. Subsequently, the
City of Chicago estimated that property acquisition costs alone for the project would
have totaled between $200 and $300 million. The consultant’s report also concluded
that none of the alternatives for improving Midway’s runway safety areas were
practicable, including installation of a standard EMAS. At the time, an EMAS was
not an option for Midway because the limited area beyond the runway ends could not
accommodate a standard EMAS.

Midway Airport Is Installing a Non-Standard EMAS
Recent changes to FAA guidance and improved technology allow the airport to
pursue installation of a non-standard EMAS. Where FAA determines that it is not
practicable for an airport to install a standard EMAS, a non-standard EMAS is an
alternative that would provide the airport with an added measure of safety.
According to FAA, 17 of the 22 EMAS currently in place are non-standard. Midway
Airport had not installed an EMAS previously because it lacked the space to install a
standard EMAS that was set back 75 feet from the end of the runway and could stop
an aircraft leaving the runway at 70 knots. FAA’s September 30, 2005, guidance
clarified the acceptability of non-standard EMAS alternatives that stop an aircraft
2
    FAA Order 5200.8, Runway Safety Area Program (1999).
3
    Chicago Midway International Airport Runway Safety Area Practicability Study, May 18, 2004.


Control No. 2006-013
                                                                                                            4

leaving the runway at only 40 knots. In addition, researchers have developed a new
coating that will better protect the EMAS from destruction caused by jet blast. This
will allow the distance that the EMAS is set back from the runway to be only 35 feet
instead of 75 feet. Prior to the Midway accident, only one airport had the shorter
35-foot setback that Midway needs for its systems. Subsequently, 2 more airports
have added EMAS with setbacks of 35 feet or less.

Midway is in the process of constructing EMAS at the ends of both of its commercial
aircraft runways. The project is estimated to cost $40 million and is being done in
phases. FAA awarded the Chicago Department of Aviation $15 million in Federal
funds in June 2006 for Phase 1 of the project. Construction is nearly complete on the
runway end where the Southwest accident occurred. The project has been shut down
for the winter but is expected to be complete this spring. The airport also plans to
install EMAS at the remaining ends of the commercial runways by the end of 2007.

All Airports Must Comply With Runway Safety Area Standards by 2015
The 2006 Transportation Appropriations Act4 mandated that all airports comply with
FAA regulatory requirements for runway safety areas by 2015. Airports can comply
with the mandate by constructing adequate runway safety areas or installing EMAS to
the extent practicable. EMAS have already been installed on 22 runways nationwide;
including LaGuardia, John F. Kennedy, and Fort Lauderdale International Airports;
and have arrested at least 4 overruns to date.

The Act also required that FAA report to Congress annually on the Agency’s progress
toward improving runway safety areas. FAA is currently in the process of finalizing
its first annual report.

If I can answer any questions or be of further assistance in this or any other matter,
please feel free to contact me at (202) 366-1959 or my Deputy, Todd J. Zinser, at
(202) 366-6767.


Sincerely,




Calvin L. Scovel III
Inspector General


Enclosure
4
    Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
    Independent Agencies Appropriations Act, Public Law 109-115.


Control No. 2006-013
                                                                              Enclosure
                                                                             Page 1 of 3
      ANSWERS TO REPRESENTATIVE JACKSON’S QUESTIONS

    1. How many operations was Midway Airport originally built to handle?
        The original design plans for Midway Airport were not available for
        comparison with current plans and operations. According to the Chicago
        Department of Aviation’s Assistant Commissioner for Aviation Planning and
        Real Estate, either the plan never existed or it has been lost over time. He said
        it is likely that the airport “just evolved.” Midway Airport provided operations
        data from the 1920s, which were compiled from city council meetings, but
        airport officials were not sure of the data’s accuracy. According to these data,
        operations in the 1950s exceeded current operations.

    2. How many operations does Midway Airport currently handle?
        According to FAA statistics, the airport conducted just over 290,000 operations
        in 2005, down from the previous 3 years (2002 to 2004). Current operations
        are far below Midway’s historical high of 431,400 operations in 1959, when it
        was the busiest airport in the world. By 1962, however, Midway operations
        dropped to just over 100,000 with the opening of O’Hare International Airport
        and its longer runways, which more easily accommodated jet aircraft.

    3. How many operations over the original plan and design does Midway
       Airport currently handle?
        As stated in Question 1, original design plans are not available.

    4. What was the original planned annual rate of growth of operations at
       Midway Airport?
        Original planned growth data is not available according to Chicago Department
        of Aviation officials.

    5. What is the current annual growth rate compared to the original plan?
        Our analysis of FAA operations data showed an average annual growth of
        1.8 percent since 1978. However, operations at Midway have been very erratic
        over time (see Figure on page 2 of the letter). For example, from 1985 until
        1990, total Midway operations grew at an average rate of 11 percent per year,
        as air carrier and especially air taxi operations grew significantly and general
        aviation operations continued to weaken.

        From 1990 to 1992, operations declined sharply—this period marked the start
        of the Gulf War, the associated spike in jet fuel prices, and the dissolution of
        Midway Airlines. Midway’s fortunes reversed once again with the longest
        period of sustained growth from 1992 until 2004. During this 12-year time
        period, operations grew, on average, 5.8 percent per year. Most recently, from


Control No. 2006-013
                                                                                Enclosure
                                                                               Page 2 of 3
        2004 to 2005, Midway’s operations again showed a marked decline as air taxi
        operations plummeted. This decrease in operations coincides with the spike in
        oil prices, in excess of $50 per barrel.

    6. Were any safety rules stretched or compromised by the U.S. Department
       of Transportation (DOT), the FAA, or the City of Chicago’s Department
       of Aviation in addressing the capacity problem at Midway Airport?
        Based on our analysis of current and historical operations data, air traffic
        control data, and estimates regarding capacity, we have concluded that Midway
        Airport has sufficient capacity to handle its current level of aircraft operations.
        Therefore, there is no need for FAA air traffic controllers or airport operations
        managers to compromise or stretch safety rules to accommodate more aircraft.

        We also reviewed Midway Airport’s airport certification safety inspections for
        the past 5 years, which found the airport to be in compliance with FAA
        regulations. The June 2005 FAA inspection noted that Midway was an
        “excellent operation” and that it had no violations.

    7. Will the U.S. DOT Inspector General and the National Transportation
       Safety Board seek any and all documents from the regional FAA office
       and the Chicago Department of Aviation as part of its inquiry that
       justified extending the operations from the maximum allowable under the
       original design to the present number of operations?
        As noted previously, the original design plans and planned growth data are not
        available according to Chicago Department of Aviation officials. According to
        FAA’s Washington Office of Airports, improvements made to the airport over
        the years enable Midway to operate safely with the current air traffic activity.
        In addition, we met with and collected documents from officials at the regional
        FAA office and Midway Airport. Based on our meetings and review of
        documents, we concluded that the airport has sufficient capacity to handle its
        current level of aircraft operations.

    8. What agency—the U.S. Department of Transportation, the Federal
       Aviation Administration, or the City of Chicago’s Department of
       Aviation—granted a “waiver” to conduct landings at Midway with short
       clear zones at the end of runways? Will the Inspector General seek any
       and all documents related to the granting of this waiver?
        There is no specific waiver required for landings at Midway with respect to the
        short runway safety areas (short clear zones). Instead, airports like Midway are
        exempted by the regulations. FAA regulations do not require runways
        constructed before December 1987 to comply with the runway safety area
        design criteria if it is not practicable.


Control No. 2006-013
                                                                           Enclosure
                                                                          Page 3 of 3
        In October 1999, FAA established its Runway Safety Area Program and
        required that FAA regional and/or district airport offices perform periodic
        analyses to determine whether runway safety areas meet current FAA design
        standards and, if not, if they can be improved to meet standards. In
        September 2000, FAA concluded that it was not practicable for Midway to
        achieve runway safety area standards. However, with recent technological
        advancements, it is now practicable for Midway to install engineered material
        arresting systems (EMAS) at the end of its runways. Midway is in the process
        of constructing EMAS at the ends of both of its commercial aircraft runways.
        The project should be completed by the end of 2007.

The remaining questions in your letter all relate to safety issues regarding the
Southwest accident and are therefore part of NTSB’s ongoing accident review. We
are deferring these questions to NTSB.

    ¾ Since 80 percent of the delays at Midway and O’Hare Airports are
      weather related, has the U.S. DOT, the FAA, or the City of Chicago’s
      Aviation Department taken any shortcuts beyond the “waiver” mentioned
      above in order to land more planes at Midway?

    ¾ Did the officials responsible for operations at Midway Airport allow
      sufficient time between operations to clear the runways for planes to land
      safely under these weather conditions?

    ¾ Did constraints on the local air space have any effect in determining which
      runway should be used in landing Southwest Flight 1248?

    ¾ Did constraints within the local air space have any impact or casual effect
      with respect to the accident?

    ¾ Could the accident have been avoided if the airplane had landed on a
      different runway?




Control No. 2006-013
The following page contains the textual version of the chart found in this document.
This page was not part of the original document but has been added here to
accommodate assistive technology.
    Letter to Representative Jackson on Chicago Midway Airport Operations,
                      Capacity, and Runway Safety Areas

                           Section 508 Compliant Presentation

Figure. Midway Airport Operations 1978 to 2005

 Year      Air Carrier        Air Taxi      General        Total
                                            Aviation
  1978             1,687               0      166,444           176,049
  1979             3,360               0      175,068           189,698
  1980            13,947               0      185,845           211,177
  1981            22,036               0      181,518           212,028
  1982            29,175               0      173,165           212,343
  1983            32,457             174      170,206           210,833
  1984            41,199           2,012      160,366           207,174
  1985            48,394             368      135,424           186,987
  1986            60,644          10,974      136,870           211,360
  1987            92,279          27,891      120,144           242,964
  1988           116,287          78,269      101,525           299,012
  1989           125,088          94,079        90,707          313,143
  1990           131,091         102,143        82,379          318,999
  1991           109,252          90,626        73,276          275,186
  1992            62,153          40,125        68,939          173,489
  1993            81,480          48,031        68,407          199,830
  1994           126,663          69,459        72,075          269,652
  1995           127,234          55,000        72,332          256,572
  1996           123,295          48,589        80,821          255,045
  1997           127,294          47,832        88,304          265,543
  1998           139,678          47,059        89,047          278,517
  1999           157,009          51,427        84,822          297,619
  2000           168,747          56,477        70,374          298,115
  2001           156,918          64,136        56,207          278,734
  2002           168,141          81,078        53,599          304,336
  2003           174,086          94,607        57,792          328,025
  2004           183,006          97,138        58,876          339,508
  2005           181,390          44,369        57,988          284,618
Source: Midway Airport

The above table shows that while operations have trended upward since the early
1990s, data from 2004 to 2005 show a 16.2 percent decline in operations. There were
fewer operations at Midway in 2005 than any of the previous 3 years.
